  COMPLIANCE WITH STANDARDS GOVERNING
COMBINED DNA INDEX SYSTEM ACTIVITIES AT THE
     MONTANA DEPARTMENT OF JUSTICE
        FORENSIC SCIENCE DIVISION
           MISSOULA, MONTANA




          U.S. Department of Justice
        Office of the Inspector General
                 Audit Division


         Audit Report GR-60-10-004
                 May 2010
        COMPLIANCE WITH STANDARDS GOVERNING
      COMBINED DNA INDEX SYSTEM ACTIVITIES AT THE
            MONTANA DEPARTMENT OF JUSTICE
              FORENSIC SCIENCE DIVISION
                     MISSOULA, MT

                              EXECUTIVE SUMMARY


      The Department of Justice, Office of the Inspector General (OIG),
Audit Division, has completed an audit of compliance with standards
governing Combined DNA Index System (CODIS) activities at the Montana
Department of Justice Forensic Science Division Laboratory (Laboratory).
The Federal Bureau of Investigation’s (FBI) CODIS program blends forensic
science and computer technology to provide an investigative tool to federal,
state, and local crime laboratories in the United States, as well as those from
select international law enforcement agencies. The CODIS program allows
laboratories to compare and match DNA profiles electronically to assist law
enforcement in solving crimes and identifying missing or unidentified
persons. The FBI’s CODIS Unit manages CODIS, as well as develops,
         1

supports, and provides the program to crime laboratories to foster the
exchange and comparison of forensic DNA evidence.

      The FBI implemented CODIS as a distributed database with
hierarchical levels that enable federal, state, and local crime laboratories to
compare DNA profiles electronically. The hierarchy consists of three distinct
levels that flow upward from the local level to the state level and then, if
allowable, the national level. National DNA Index System(NDIS), the
highest level in the hierarchy, is managed by the FBI as the nation’s DNA
database containing DNA profiles uploaded by law enforcement agencies
across the United States. NDIS enables the laboratories participating in the
CODIS program to electronically compare DNA profiles on a national level.
The State DNA Index System (SDIS) is used at the state level to serve as a
state’s DNA database containing DNA profiles from local laboratories and
state offenders. The Local DNA Index System (LDIS) is used by local
laboratories.

       1
          DNA, or deoxyribonucleic acid, is genetic material found in almost all living cells
that contains encoded information necessary for building and maintaining life.
Approximately 99.9-percent of human DNA is the same for all people. The differences
found in the remaining 0.1-percent allow scientists to develop a unique set of DNA
identification characteristics (a DNA profile) for an individual by analyzing a specimen
containing DNA.
      The objectives of our audit were to determine if the: (1) Laboratory
was in compliance with the NDIS participation requirements; (2) Laboratory
was in compliance with the Quality Assurance Standards (QAS) issued by the
FBI; and (3) Laboratory’s forensic DNA profiles in CODIS databases were
complete, accurate, and allowable for inclusion in NDIS. The results of our
review are below.

      •   The Laboratory was in compliance with the NDIS participation
          requirements. Specifically, we found that CODIS access is properly
          safeguarded, Laboratory personnel requirements are being fulfilled,
          and policies and procedures related to NDIS are available and
          followed by Laboratory staff.

      •   We reviewed the most recent internal and external audits and
          Laboratory policies and procedures related to sample security,
          sample processing, sample retention, and subcontracts. We found
          the Laboratory to be in compliance with the QAS.

      •   The Laboratory’s 80 forensic DNA profiles that we reviewed were
          complete, accurate, and allowable for inclusion in NDIS.

      The results of our audit are discussed in detail in the Findings section
of the report. Our audit objectives, scope, and methodology are detailed in
Appendix I of the report and the audit criteria are detailed in Appendix II.

      We discussed the results of our audit with Laboratory officials and
have included their comments in the report as applicable. Since we make no
formal recommendations for corrective action the FBI did not provide a
response to the draft report.
